OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID’S PROGRESS
IN IMPLEMENTING THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 9-000-07-004-P
DECEMBER 22, 2006




WASHINGTON, DC
Office of Inspector General

December 22, 2006

MEMORANDUM

TO:                  GH/HIV-AIDS Director, S. Ken Yamashita

FROM:                IG/A/PA Director, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID’s Progress in Implementing the President’s Emergency Plan
                     for AIDS Relief (Report No. 9-000-07-004-P)


This memorandum transmits our final report on the subject audit. In finalizing our report,
we considered your comments on our draft report and have included your response in its
entirety in Appendix II.

This report includes two recommendations for the Office of HIV/AIDS Director to (1) meet with
the Department of State’s Office of U.S. Global AIDS Coordinator to clarify the start and cut-off
dates for measuring progress and achieving outputs, and (2) request that the Department of
State’s Office of U.S. Global AIDS Coordinator issue guidance to all USAID missions with
Emergency Plan activities to clarify these dates. In your written comments, you described
actions taken to address our Recommendation Nos. 1 and 2. Accordingly, we consider final
actions have been taken on both recommendations upon issuance of this report.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ......................................................................................................... 1

Background ...................................................................................................................... 2

Audit Objective ....................................................................................................................   3

Audit Findings ................................................................................................................... 4

     USAID Should Clarify Guidance on
     Measuring Output Progress and
     Achievement ................................................................................................................. 6

     USAID Should Emphasize
     Data Quality of Outputs................................................................................................. 9

Evaluation of Management Comments .............................................................................12

Appendix I – Scope and Methodology ..............................................................................13

Appendix II – Management Comments .............................................................................15

Appendix III – Audit Recommendations by Mission Audited .........................................23

Appendix IV – Audit Reports Issued ................................................................................26
SUMMARY OF RESULTS
This audit, performed by the Office of Inspector General’s Performance Audits Division,
summarizes the results of audits conducted at four selected missions in Africa and South
America. In addition to summarizing these results, this report addresses USAID-wide
issues identified during the course of these audits. (See Appendix III for audit
recommendations by mission audited, and Appendix IV for a list of audit reports issued.)

The objective of this audit was to determine whether USAID's Emergency Plan
prevention and care activities progressed as expected towards the planned outputs in its
grants, cooperative agreements, and contracts. (See page 3.) We were unable to
determine whether USAID’s prevention and care activities progressed as expected
because the start and cut-off dates for measuring progress and achievement of outputs
were not interpreted and applied uniformly by the missions audited, due to unclear
guidance issued by the U.S. Global AIDS Coordinator. (See page 6.)

The report recommends that the Office of HIV/AIDS Director (1) meet with the
Department of State’s Office of U.S. Global AIDS Coordinator to clarify the start and cut-
off dates for measuring progress and achieving outputs contained in all current and
future Country Operational Plans, and (2) request that the Department of State’s Office
of U.S. Global AIDS Coordinator issue guidance to all USAID missions with Emergency
Plan activities to clarify these dates. (See page 8.) Management described actions
taken to address our Recommendation Nos. 1 and 2. Accordingly, we consider final
actions have been taken on both recommendations upon issuance of this report. See
page 12 for our evaluation of management’s comments.

Management’s comments are included in their entirety in Appendix II.




                                                                                        1
BACKGROUND
Congress enacted legislation to fight HIV/AIDS internationally through the President’s
Emergency Plan for AIDS Relief (Emergency Plan). The $15 billion, 5-year program
provides $9 billion in new funding to speed up prevention, care, and treatment services
in 15 focus countries. 1 The Emergency Plan also devoted $5 billion over five years to
bilateral programs in more than 100 countries and increased the U.S. pledge to the
Global Fund 2 by $1 billion over five years. The fiscal year (FY) 2005 budget for the
Emergency Plan focus countries totaled $1.03 billion. Our audit covered USAID
missions in Tanzania, Guyana, Nigeria, and South Africa. These four missions had FY
2005 funding levels totaling $171.8 million, or 56 percent of the $304.5 million
Emergency Plan funding for the four countries.

The Emergency Plan is directed by the Department of State’s Office of the U.S. Global
AIDS Coordinator (AIDS Coordinator). 3 To ensure program and policy coordination, the
AIDS Coordinator manages the activities of the U.S. Government agencies responding
to the pandemic. The Emergency Plan is implemented collaboratively by in-country
teams made up of staff from USAID, the Department of State, the Department of Health
and Human Services, and other agencies. The Bureau for Global Health has general
responsibility for USAID’s participation in the Emergency Plan. More specifically, the
Director of Global Health’s Office of HIV/AIDS provides the technical leadership for
USAID’s HIV/AIDS program.

The U.S. President and Congress have set aggressive goals for addressing the
worldwide HIV/AIDS pandemic. The worldwide goal over 5 years is to provide treatment
to 2 million HIV-infected people, prevent 7 million HIV infections and provide care to 10
million people infected or affected by HIV/AIDS, including patients and orphans. The
AIDS Coordinator divided these Emergency Plan targets among the 15 focus countries
and allowed each country to determine its own methodology for achieving its portion of
the assigned targets by the end of five years.




1
  Twelve countries in Africa (Botswana, Cote d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia,
Nigeria, Rwanda, South Africa, Tanzania, Uganda, and Zambia), and three other countries
(Guyana, Haiti and Vietnam).
2
 The Global Fund is a public-private partnership that raises money to fight AIDS, tuberculosis
and malaria.
3
    The AIDS Coordinator reports directly to the Secretary of State.




                                                                                            2
AUDIT OBJECTIVE
As part of the Office of Inspector General’s fiscal year 2006 annual audit plan, the
Performance Audits Division directed this audit to answer the following objective:

•   Did USAID's Emergency Plan prevention and care activities progress as expected
    towards the planned outputs in its grants, cooperative agreements, and contracts?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                   3
AUDIT FINDINGS
We were unable to determine whether USAID’s prevention and care activities
progressed as expected. The start and cut-off dates for measuring progress and
achievement of outputs were not interpreted and applied uniformly by the missions
audited, due to unclear fiscal year (FY) 2005 Country Operation Plan Guidance issued
by the U.S. Global AIDS Coordinator (AIDS Coordinator). See page 6 for further details.

In terms of the mission-level audits, three of four reports determined that USAID’s
Emergency Plan activities did not progress as expected towards planned outputs. Our
conclusion on the three audits was negative because we used the ending date of FY
2005, September 30, 2005, as the cut-off date for measuring progress and achievement
of outputs. However, upon further analysis and discussion, we determined that neither
this day nor any other cutoff date was (a) clear enough from the guidance and (b)
uniformly applied across the missions. Without such a date, we were unable to
determine whether USAID’s prevention and care activities progressed as expected. The
fourth audit report could not make a determination because of data quality problems. All
four reports included related audit findings. Specifically,

•   USAID/Tanzania’s activities did not progress as expected towards meeting planned
    outputs in its grants, cooperative agreements, and contracts due to the late receipt of
    fiscal year 2005 funding. Additionally, the audit noted a finding on the Mission’s
    need to strengthen its monitoring of its partners and activities.

    For the six partners reviewed, representing 81 percent of USAID/Tanzania’s
    prevention and care funding for FY 2005, 6 of 14 key outputs (43 percent) selected
    for review were not met. FY 2005 funds were partially 4 available to the Mission in
    April 2005, but were not fully available until July or August 2005.

•   USAID/Guyana’s Emergency Plan activities did not progress as expected towards its
    planned outputs because the Mission did not receive FY 2005 funds until March
    2005; supporting media campaigns were not launched or communications materials
    were underutilized; local sub-grantees were less capable than expected; and USAID
    and Family Health International 5 did not always provide needed guidance and
    oversight, insufficient funding, or other reasons. Also, the audit noted findings on
    inconsistent performance targets involving the Country Operational Plan, a contract
    and various workplans; inaccurate or unsupported results by an implementing



4
 Funds were available at FY 2004 levels, which were approximately 50 percent of the requested
amounts.
5
 USAID/Guyana only has Emergency Plan contracts with Family Health International (FHI) and
Maurice Solomon & Company (see next footnote). FHI is the only implementing partner for
USAID/Guyana. FHI, in collaboration with four subcontractors provides technical direction to a
network of 19 local non-governmental organizations and faith-based organizations that provide
services to program beneficiaries.




                                                                                            4
    partner and its sub-grantees; delays in fund advances from the disbursement firm 6 to
    the local organizations; weak financial management practices by several sub-
    grantees; and lack of exit strategies by sub-grantees.

    Of the 21 USAID-financed outputs listed in the FY 2005 Country Operational Plan,
    13 (62 percent) planned outputs were not achieved, and progress toward achieving 3
    (14 percent) outputs could not be fully evaluated because targets were not
    established or because sufficient information on actual accomplishments was not
    available.

•   USAID/Nigeria’s activities did not progress as expected towards planned outputs in
    its grants, cooperative agreements, and contracts due to the late receipt of FY 2005
    funding. The audit found discrepancies with the data used to track partners’
    progress in achieving outputs.

    For the five partners reviewed, representing 86 percent of USAID/Nigeria’s
    prevention and care funding for FY 2005, 8 of 15 key outputs (53 percent) selected
    for review were not met as of September 30, 2005. However, partners have reported
    significant progress toward achieving planned outputs since September 30, 2005.
    For 11 of the 15 key outputs (73 percent) reviewed, partners reported achieving 90
    percent or more of their planned outputs within six to twelve months of receiving FY
    2005 funding.

•   We were not able to answer the audit objective for USAID/South Africa because of
    data quality problems with outputs selected for review. The audit had findings on the
    Mission’s need to validate 7 reporting data and to better document site visits.

USAID has challenges concerning the lack of uniformity regarding the start and cut-off
dates on measuring progress and achievement of outputs, as well as on the data quality
of outputs. These issues are discussed in the following subsections.




6
 Maurice Solomon & Company is a local accounting firm that advances USAID funds to the local
organizations, obtains liquidations that show how the funds were used, and provides financial and
administrative management assistance to the organizations.
7
  Mission and recipient officials stated that two of the nine provincial governments would not allow
their reported data to be validated. They stated that the provincial governments (1) believed that
the data belonged to the government and not the USAID recipient, and (2) expressed concerns
about protecting patient identities. (The issue is already being discussed by the U.S. Government
Mission in South Africa.)




                                                                                                  5
USAID Should Clarify Guidance
on Measuring Output Progress
and Achievement
Summary: We noted inconsistencies among the missions audited regarding the start
and end date for measuring progress and achievement of outputs for FY 2005
Country Operation Plan activities. This occurred because the guidance issued by the
AIDS Coordinator on the performance period for measuring progress and
achievement of outputs was not sufficiently clear. According to Automated Directives
System 203.3.5, data reliability is a key dimension of data quality. Reliable data from
one reporting period to the next allows for the comparison of reporting results over
time. As a result, performance data across USAID missions, and from one reporting
period to the next for the same mission, are at risk of not being comparable and
reliable.

There were inconsistencies among the USAID missions audited regarding the start and
cut-off dates for measuring progress and achievement of outputs for the FY 2005
Country Operation Plan activities. The start and cut-off dates for achieving FY 2005
results were not interpreted and applied uniformly by the missions audited. For
management as well as audit purposes, a consistent cut-off date is needed for FY 2005
and for future years’ activities so that progress can be measured for each mission from
year to year and uniformly across missions. We encountered different situations
regarding the start and cut-off dates for the missions audited. For example,

    •   Although USAID/Tanzania received its FY 2005 funds extremely late, the audit
        team measured progress using a September 30, 2005 cut-off date. The late
        availability of funds was the primary reason cited for the lack of progress in
        achieving outputs by the Mission.

    •   USAID/Guyana believed that since FY 2005 funding was not received until March
        25, 2005, the Mission did not have to achieve its outputs until March 31, 2006, 8
        not September 30, 2005. The auditors’ response to the Mission’s proposed cut-
        off date was that the FY 2005 Annual Program Results guidance states that
        results between October 1, 2004 and September 30, 2005 are to be reported
        against the FY 2005 targets, and that results are to be reported regardless of
        whether they were achieved with FY 2004 or FY 2005 funding.

    •   USAID/Nigeria believed that FY 2005 results were to be achieved in the 12-
        month period following the receipt of FY 2005 funds by headquarters agencies.
        Although the Mission stated it did not know, nor could it predict, the exact date by
        which FY 2005 funds would be received by headquarters agencies, the Mission
        defined its 12-month period to be from April 1, 2005 to March 31, 2006. The
        Mission also stated that the cut-off date for each partner should be 12 months
        from the date of receipt of funds by the partners. For example, in its
        management comments, the Mission showed one partner receiving its FY 2005

8
 Please note that this date is after the auditors completed their fieldwork in Guyana on February
17, 2006.




                                                                                               6
          funding in June 2005 and having until June 2006 to achieve its outputs, while
          another partner received its FY 2005 funding in July 2005 and had until July 2006
          to achieve its outputs.

      •   The cut-off date did not surface as an issue at USAID/South Africa.

The different interpretations by the missions audited occurred because the guidance
issued by the AIDS Coordinator was not clear as to the start and cut-off dates for
measuring progress and achievement of outputs for FY 2005 Country Operational Plans
activities. The guidance issued for the FY 2006 and 2007 Country Operational Plans is
also not clear as to start and cut-off dates for measuring progress and achievement of
outputs, and is also problematic because the period of performance for measuring
progress and achievement of outputs may be extended to 24 months in future years.
The following table summarizes the FY 2005, 2006 and 2007 Country Operational Plan
guidance:

Comparison of Table 2 and Table 3 of the FY 2005, 2006, and 2007 Country
Operational Plan guidance


                    FY 2005 Guidance           FY 2006 Guidance            FY 2007 Guidance

                  Targets are to be met      Targets are to be met        Targets are to be met
     Table 2 9    during FY 2005.            during FY 2006.              during FY 2007.
                  (October 1, 2004 to        (October 1, 2005 to          (October 1, 2006 to
                  September 30,              September 30,                September 30, 2007)
                  2005) 10                   2006) 11

                  FY 2005 funds              The FY 2006                  The FY 2007
     Table 3 12   should be expended,        timeframe includes           timeframe is the fiscal
                  and associated             fiscal year 2007,            year that ends in
                  results produced,          ending in September          September 30, 2008.
                  within 12 months of        30, 2007 13
                  receipt of funds by
                  headquarters
                  agencies.


9
   Table 2 relates to country-level targets, and cites targets to be met regardless of when funding
is received, as explained to us by staff working for the AIDS Coordinator.
10
  The guidance states that “it will be against these targets that the progress reports results will be
evaluated.”
11
  The guidance states that “it will be against these targets that the Annual Program Results
(APR) will be evaluated.”
12
   Table 3 is considered a planning tool and relates to partners’ funding, as explained to us by
staff working for the AIDS Coordinator.
13
     The guidance is not clear regarding the beginning of the FY 2006 performance period.




                                                                                                    7
While acknowledging that funds will not likely be immediately available at the start of any
fiscal year, we believe that up to two years to achieve results (see bottom row of the
above table) appears to be excessive and makes it more difficult for managers to
observe trends in performance data and make necessary adjustments to its Emergency
Plan activities.

USAID’s Automated Directives System 203.3.5.1 states that data reliability is a key
dimension of data quality. Only by using reliable data over time can program managers
evaluate the effectiveness, and determine the direction and efficiency of their program.
The availability of reliable data from one reporting period to the next allows for the
comparability of reporting results over time. Data comparisons across time can quickly
alert Emergency Plan managers and other stakeholders of changes in performance,
programmatic gaps to be filled, and whether targets are being met. Similarly, data
comparisons across missions can lead to refined strategic planning and can be an
important tool for policy development.

As a result of the lack of clarity in the guidance issued for the FY 2005 Country
Operational Plan, missions did not have a consistent understanding as to the start and
cut-off dates for measuring progress and achievement of outputs, and used different
ending dates to measure progress and achievement of outputs. Unless the progress
and achievement of outputs (targets) are compared using consistent cut-off dates,
managers will not be able to evaluate the effectiveness, and determine the direction and
efficiency of their programs.

Given the importance of having clear start and cutoff dates for measuring progress and
achieving outputs, we believe the USAID’s Office of HIV/AIDS should meet with the
Department of State’s Office of the U.S. Global AIDS Coordinator to clarify start and cut-
off dates, and request the Department of State’s Office of the U.S. Global AIDS
Coordinator to issue clear and explicit guidance to all missions with Emergency Plan
activities, as stated below.

   Recommendation No. 1: We recommend that the Office of HIV/AIDS Director
   meet with the Department of State’s Office of the U.S. Global AIDS Coordinator
   to clarify the start and cut-off dates for measuring progress and achieving outputs
   contained in all current and future Country Operational Plans.

   Recommendation No. 2: We recommend that the Office of HIV/AIDS Director
   request that the Department of State’s Office of the U.S. Global AIDS
   Coordinator issue guidance to all USAID missions with Emergency Plan activities
   to clarify the start and cut-off dates for measuring progress and achieving outputs
   contained in all current and future Country Operational Plans.




                                                                                         8
USAID Should Emphasize
Data Quality of Outputs
     Summary: All four missions audited noted issues directly or indirectly related to the
     quality of data due to lack of adequate guidance, training, or procedures on the part of
     the missions, prime partners, or both. USAID’s policies and procedures and other
     guidance emphasize the importance of data quality of outputs produced by
     implementing partners. Unreliable data can impact on the appropriateness of
     management decisions, and the ability of managers to evaluate the effectiveness and
     efficiency of their programs.

As discussed in more detail below, all four mission audit reports brought up issues
related to data quality of outputs. For example,

      •   In Tanzania, CARE reported 1,047 orphans had been assisted by its sub-grantee
          as of September 30, 2005. Although the sub-grantee’s internal records showed
          1,118 orphans, our examination of the records showed that 1,077 orphans
          received support as of August 15, 2005. Officials were not able to explain why
          the register did not list any names of participants that signed up past August 15,
          2005. The net effect of these two mistakes was minimal (the total count reported
          to USAID was 1,047, while the actual count was 1,077, 14 or less than a 3%
          difference), but without an independent verification, larger discrepancies could go
          undetected.

      •   In Guyana, one planned output was to provide 560 orphans and vulnerable
          children with care and support. The program, and the Second Annual Report to
          Congress, stated that the program served 5,209 orphans and vulnerable
          children. However, our review of supporting documentation indicated that the
          program assisted only 289 children, few of whom were directly affected by
          HIV/AIDS.

      •   USAID/Nigeria and its partners’ records had various data discrepancies, which
          were not always discovered during the Mission’s portfolio review or when
          entering data into the Mission’s spreadsheet used to track partners’ progress.
          For example, Safe Blood for Africa Foundation (the Foundation) had a planned
          output of training 40 individuals in blood safety procedures. During a portfolio
          review of the Foundation, the Mission used the output achievement of 3,682
          individuals trained as of September 2005, the same figure reported in the
          Foundation’s progress report—a figure that reflected the results achieved from
          activities funded by both USAID and the Centers for Disease Control and
          Prevention (CDC). At another point in time, the partner submitted data indicating
          the number trained as 3,075, and the Mission entered this figure into its internal
          tracking spreadsheet known as the Annual Report Tables. Regardless of which
          figure is used, the figures included training funded by CDC. This error should
          have been noticed when conducting the portfolio review or when entering the

14
  Of course, the actual total might have increased for any new participants that joined during the
August 15 to September 30, 2005 timeframe.




                                                                                                9
       data into the spreadsheet, as either figure resulted in a very high achievement
       rate of between 7,000 to 9,000 percent. While visiting the Foundation’s office,
       partner staff provided a breakout of training data between USAID and CDC that
       showed only seven individuals’ could be attributable to USAID, an achievement
       level of 17.5 percent (7 divided by 40).

   •   In South Africa, three of five recipients tested had some data problems with their
       own or sub-recipient data. For example, a sub-recipient clinic could not produce
       documentary support for 88 patients that had been reported to the USAID
       recipient for a month of activity under “Positive Women Given Nevirapine.” The
       sub-recipient’s staff member produced a manual register with 85 names, and a
       second register with an additional 6 names. However, a staff member was not
       sure if the second register listed persons that had received Nevirapine during the
       month. The USAID recipient monitoring and evaluation specialist said that they
       had never validated the data from this clinic. In another case, a recipient had
       reported 3,334 individuals trained in the provision of general and related palliative
       care, but a register showed only 2,133 individuals trained. The recipient’s files
       had not documented the basis for the compilation of the numbers.

The causes for these data quality weaknesses included (1) missions (or a prime partner)
did not always provide effective guidance or training to grantees or sub-grantees, (2)
missions did not have sufficient procedures to ensure the recipient’s monitoring of the
validity of their own and their sub-recipient’s data, and (3) missions (or a prime partner)
did not periodically validate reported results.

USAID guidance emphasizes the importance of data quality when that data is used to
make management decisions. Automated Directives System 203.3.5 states that
Operating Units should ensure that the data used are of sufficiently high quality to
support the appropriate level of management decisions. Automated Directives System
203.3.5.2 also requires data quality assessments on Agency data that is reported
externally. Additionally, USAID’s Center of Development Information and Evaluation
Performance Monitoring and Evaluation Tips Number 12 explains how USAID uses
performance data in managing for results. Sound decisions require accurate, current,
and reliable information, and the benefits of this results-oriented approach substantially
depend on the quality of the performance information available. In addition, the Office of
Management and Budget’s Guidelines for Ensuring and Maximizing the Quality,
Objectivity, Utility, and Integrity of Information Disseminated by Federal Agencies
(January 3, 2002) states that agencies are directed to develop information resources
management procedures for reviewing and substantiating the quality (including the
objectivity, utility, and integrity) of information before its dissemination.

Relying on inaccurate data could result in making management decisions that are
inappropriate or in reporting results that are understated or overstated. Therefore, a
mission cannot reliably determine if the program was achieving planned outputs and the
mission can report inaccurate information to the AIDS Coordinator and the Congress.




                                                                                         10
Since Emergency Plan activities in the four missions audited had data quality issues, we
believe that Emergency Plan activities in other missions may also have data quality
issues. However, this report is not making a recommendation on data quality since:

   (1) All four mission-level audit reports have already made specific recommendations
       to correct problems identified on the mission-level audits,

   (2) Specific data quality issues in Emergency Plan activities at other missions may
       differ from those found at the four mission-level audits, and

   (3) The USAID Office of Inspector General’s “Report on the Audit of USAID’s
       Financial Statements for Fiscal Years 2006 and 2005” (Audit Report No. 0-000-
       07-001-C), issued November 15, 2006, included a recommendation on the
       quality of performance data. Specifically, audit recommendation number 5 states
       “We recommend that USAID require all bureaus and missions to certify that
       performance data submitted for publication are accurate, adequately supported,
       and that the required data quality assessments have been performed.”




                                                                                     11
EVALUATION OF
MANAGEMENT COMMENTS
Management described actions taken to address Recommendation Nos. 1 and 2.
Specifically, the Office of HIV/AIDS staff met with the Office of U.S. Global AIDS
Coordinator staff on November 27, 2006 and discussed the need to clarify the start and
cut-off dates for measuring progress and achieving outputs. According to USAID, the
Office of U.S. Global AIDS Coordinator has agreed to update the FY 2008 Country
Operational Plan guidance to clarify these dates. The FY 2008 Country Operational Plan
guidance will be issued to all Emergency Plan countries in the spring of FY 2007.
Accordingly, we consider that final actions have been taken on both recommendations
upon issuance of this report.

Management comments are included in their entirety in Appendix II.




                                                                                    12
                                                                                       APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted audits at four USAID missions in accordance
with U.S. generally accepted government auditing standards. These audits were
designed to answer the following question: Did USAID's Emergency Plan prevention
and care activities progress as expected towards planned outputs in its grants,
cooperative agreements, and contracts. This report summarizes the results of audit
work conducted both at USAID offices in Washington, D. C. and at selected overseas
USAID missions. 15 The audit fieldwork was conducted from October 2005 through June
2006 in:

       •   Washington, D.C, intermittently from October 2005 through June 2006.

       •   Tanzania—at the USAID Mission and various Emergency Plan sites, and in
           Washington, DC—from November 30, 2005 through January 25, 2006.

       •   Guyana—at the USAID Mission and various Emergency Plan sites from January
           31 through February 17, 2006.

       •   South Africa—at the USAID Mission and various Emergency Plan sites from
           March 9 through May 10, 2006.

       •   Nigeria—at the USAID Mission and various Emergency Plan sites from April 10
           through April 27, 2006.

In conducting these audits, we assessed the effectiveness of USAID’s internal controls
related to the Emergency Plan. We identified internal controls such as:

       •   USAID’s process for monitoring its partners’ progress and reporting; and

       •   USAID’s partners’ process for compiling regional data to its country-level reports.


Methodology
We reviewed Country Operational Plans, interviewed responsible mission officials and in-
country partners, and reviewed quarterly progress reports to determine progress towards
outputs and other pertinent documentation. We conducted site visits to partners and
beneficiaries involved in prevention and care activities, and observed facilities and
operations. We judgmentally selected key outputs for each selected partner and
compared those output percentages against the audit threshold criteria to determine if
planned outputs were achieved.

15
     See Appendix IV for a list of audit reports issued during this worldwide audit.




                                                                                               13
                                                                           APPENDIX I


The audit threshold criteria were as follows:

     1) If at least 90 percent of the selected key outputs have been achieved, 16 the
        answer to the audit objective would be positive.

     2) If at least 80 percent but less than 90 percent of the selected key outputs have
        been achieved, the answer to the audit objective would be qualified.

     3) If less than 80 percent of the selected key outputs have been achieved, the
        answer to the audit objective would be negative.




16
  The audit team considered an output to be achieved if the partner completed at least 90
percent of the expected (planned) output.




                                                                                      14
                                                            APPENDIX II



MANAGEMENT COMMENTS



MEMORANDUM

TO:              IG/A/PA, Steven H. Bernstein, Director

FROM:             GH/OHA, S. Ken Yamashita, Director /s/

SUBJECT:         Management Comments on the draft Audit of USAID’s
                 Progress in Implementing the President’s Emergency
                 Plan for AIDS Relief (Report No. 9-000-07-00X-P)


       This memorandum transmits the Office of HIV/AIDS’ response to the
draft audit report titled “Audit of USAID’s Progress in Implementing the
President’s Emergency Plan for AIDS Relief” (Report No. 9-000-07-00X-
P), dated November 14, 2006.

Background

      During FY 2005 and FY 2006, USAID/OIG performed audits of
USAID missions in 10 of the 15 PEPFAR focus countries. The FY 2005
audit involved 6 focus countries and the capping report was issued on
September 30, 2005. The FY 2006 audit was performed in 4 focus countries
and the audit objective was to determine if USAID’s Emergency Plan
prevention and care activities were progressing as expected towards the
planned outputs in its grants, cooperative agreements and contracts?

Two Problem Areas

   The OIG capping reports notes two primary problem areas: 1) measuring
output progress and achievements; and 2) data quality of outputs.


                                                                     15
                                                                    APPENDIX II


    These issues should be viewed in the full context of the evolving
President’s Emergency Plan for AIDS Relief (PEPFAR), implementation of
which is led by the Department of State’s Office of the US Global AIDS
Coordinator (OGAC). The PEPFAR effort arose very rapidly into one of the
world’s largest and most complicated development programs within just a
few years. This accelerated rate of growth has required tremendous
innovation in both programmatic and management terms, in addition to
ongoing adaptation to new environments and lessons learned. Change of
this nature will continue for the foreseeable future, and as it reflects input
from country programs, USG agencies, and external sources, PEPFAR will
continue to improve its processes for performance and quality.

1. USAID Should Clarify Guidance on Measuring Output
   Progress and Achievement

   “The different interpretations by the missions audited occurred because
the guidance issued by the Office of the Global AIDS Coordinator was not
clear as to the start and cut-off dates for measuring progress and
achievement of outputs for FY 2005 Country Operation Plan activities. The
guidance issued for the FY 2006 and 2007 Country Operation Plans is also
not clear as to start and cut-off dates for measuring progress and
achievement of outputs……… Given the importance of having clear start
and cutoff dates……USAID’s Office of HIV/AIDS should meet with the
Department of State’s Office of the Global AIDS Coordinator to clarify start
and cut-off dates, and request……..clear and explicit guidance to all
missions with Emergency Plan activities.”

      USAID Response

       This first issue cited by USAID/OIG is associated with two different
facets of results reporting: 1) definition of targets and results; and 2) the flow
of funding linked to specific fiscal years.

      Addressing the issue of program outputs has its origins in an early
GAO report regarding USAID-specific programming: March 2001 GAO
Report – US Agency for International Development Fights AIDS
in Africa, but Better Data Needed to Measure Impact. GAO-01-
449. This report noted that USAID should “select standard indicators to
measure the progress of their HIV/AIDS programs, gather
performance data on a regular basis, and report performance data to
a unit for analysis.” In addition to the deficiencies cited in the GAO report,

                                                                               16
                                                                  APPENDIX II


each USG agency working abroad used different indicators, methods, and
timeframes for measuring their HIV/AIDS performance.

      Since the beginning of the President’s Emergency Plan, GH/OHA has
been an active participant with OGAC and other USG agencies participating
in the Emergency Plan in creating one PEPFAR performance system with
one standard set of indicators used to measure targets and results as well as
methods and timeframes. The monitoring framework is based on three
output level indicators: (1) sites, (2) people reached, and (3) people trained.
As a result, starting in 2004 with the authorization and funding of The
Emergency Plan the following actions were taken:

          Mandated Results Reporting –The USG was the first
           international partner to mandate annual performance reporting
           for all funded activities using standard indicators. This made
           USAID work especially challenging as no international partner
           had previously mandated annual reporting based on one set of
           indicators. The US remains the only international HIV program
           to require annual reporting on standardized indicators from all
           of its funded partners.

         o USG PEPFAR Indicator Definitions – For the first time, all
           USG agencies participating in the Emergency Plan use a
           standard set of indicators, as defined in The President’s
           Emergency Plan for AIDS Relief Indicators, Reporting
           Requirements, and Guidelines. This guidance defined one set
           of standard output, outcome, and impact indicators and
           timelines for submitting performance data by all USG agencies
           participating in PEFPAR – USAID, HHS including CDC and
           HRSA, DOD, and Peace Corps. This standard indicator set and
           guidance promotes increased data quality.

         o Annual Planning Targets and Results Reporting – USG
           offices (including USAID) submit one annual USG plan of
           proposed HIV/AIDS targets that the USG will achieve in
           coordination with the national government and other donors.
           The Fiscal Year 2006 COP Guidance defined targets in Table 2
           – which is the summary results for PMTCT, treatment, and care
           (including OVCs and counseling and testing), for the fiscal
           year. These targets should be achieved during the fiscal year –


                                                                            17
                                                               APPENDIX II


            beginning October 1 and ending on September 30 – using
            available funds from both the current and previous fiscal years.
            Semi- and annual results are always reported on the fiscal year
            timeline. USG headquarters agencies use these results to show
            progress towards achieving the congressionally mandated 2-7-
            10 goals.

         o Partner and Program Service Area Targets and
           Results Reporting – In the same COP Guidance, directions
           for Table 3 focus on partner-level targets in the 14 program
           service areas and answer the question: what will be
           accomplished with one fiscal year’s budgetary allocation?
           These targets are tied to a specific amount of funding, as
           opposed to Table 2, which is tied to a specific timeframe.
           Because a fiscal year’s funding is obligated at different points
           in time in different countries, the COP guidance requires that
           the targets, activities and funds be tied to a 12 month period.
           The date for counting this 12 month period starts when partner
           dollars are obligated. Therefore, Table 3 targets cannot be
           compared to Table 3 results.

         o Downstream and Upstream Targets – PEPFAR has
           adopted an innovative approach of dividing both targets and
           results into two categories – downstream and upstream.
           Downstream targets support the number of individuals
           receiving services that are directly supported by USG
           interventions/activities   (commodities,     drugs,     supplies,
           supervision, training, quality assurance, etc.) at the point of
           service delivery. Upstream targets and results project and count
           the number of individuals receiving services beyond those
           counted under downstream as a result of the USG’s
           contribution to system strengthening or capacity-building of the
           national HIV/AIDS program as a whole. Development of
           national HIV/AIDS clinical standards and guidelines and
           development and maintenance of national commodity and drug
           procurement and logistics systems are two examples of indirect
           support.

  The second concern in this area is related to the actual flow of funding.
The flow of funds to agencies, countries, and then to partners is dependent


                                                                         18
                                                                APPENDIX II


on the date of Congressional passage of the annual PEPFAR appropriations.
This date varies each year, which then impacts on partner award dates. The
variability of these Congressional approvals provides the rationale for the
variable dates in Table 3.

    We acknowledge that the guidance for establishing timeframes for targets
(start and cut-off dates) is complex. Each year USAID works with OGAC
and other participating USG agencies to improve definitions and processes
used by countries to set targets related to the appropriate time periods.
GH/OHA staff met with OGAC staff on November 27, 2006 and discussed
the need to clarify the start and cut-off dates for measuring progress and
achieving outputs. OGAC has agreed to update the FY 2008 Country
Operational Plan Guidance to clarify these dates. The FY 2008 COP will be
issued to all Emergency Plan countries in the Spring of FY 2007.

2. USAID Should Emphasize Data Quality of Outputs

   All four audit reports noted issues directly or indirectly related to the
quality of the data due to lack of adequate guidance, training, or procedures
on the part of the USAID missions, prime partners or both.

      USAID Response

   Both USAID/OHA and OGAC agree that data quality is a top priority
and have collaborated with other USG agencies participating in the
Emergency Plan and international organizations on a series of initiatives to
improve and strengthen data quality within country programs.

   o Data Quality Assessment Tools. In 2005 PEPFAR with the
     Global Fund and the Health Metrics Network agreed to join together
     to develop three complementary tools to improve partner and country
     data quality reporting:

   • A Data Quality Assurance Tool which is PEPFAR specific
   • A protocol for Data Quality Audits
   • A protocol for National M&E Assessments

The following data quality framework was developed for these tools:




                                                                          19
                                                                     APPENDIX II



    National M&E Systems       Data Quality Audit          PEPFAR Data Quality
      Assessment Tool             (DQA) Tool                Assurance Tool for
                                                         Program Level Indicators


    What data management      Are appropriate data       What are the Data Quality
     systems should be in    management systems in        challenges in collecting
     place to ensure data-          place?                 specific indicator data
            quality?                                     (e.g., for ARV, for People
                                                                Trained, etc.)

                             Is reported data accurate
                                     and valid?




    SYSTEMS APPROACH          AUDITING APPROACH          INDICATOR APPROACH


   From June to August, 2005, assessments of existing USG and national
data collection and reporting systems were conducted in South Africa,
Kenya, Botswana, and Zambia.

   Following these visits the team developed the Data Quality Assessment
Tool which was reviewed by additional USG country teams, edited and then
finalized in the Spring, 2006. The Data Quality Assurance Tool addresses
three important issues in assessing and improving the quality of data:

   • The completeness, accuracy and consistency of the data
   • The upstream (indirect) and downstream (indirect) framework
     for target setting and results reporting
   • How to identify and resolve double-counting

   The National M&E Systems Assessment Tool, which has been endorsed
by the Emergency Plan, the Global Fund, UNAIDS, WHO, the World Bank,
Health Metrics Network, and Roll Back Malaria is being published in
December 2006. The tool was pilot tested in eight countries: Rwanda,
Russia, Niger, Congo, Chile, Bangladesh, and China.

   The developed tools consist of diagnostics, guidance, worksheets, and
text boxes that emphasize preventing and managing data quality challenges
and documenting process so that reporting systems are auditable. Their
overall goal is to provide clear and practical guidance so that each PEPFAR
country program (among other international partner HIV/AIDS programs)


                                                                                      20
                                                                 APPENDIX II


understands the constraints to good results reporting and addresses them in
the same way.

   o USG Country Strategic Information Support. Each of the 15
     focus countries along with 16 additional countries receiving over $5
     million annually in USG bi-lateral HIV/AIDS funding now has at
     least one headquarters strategic information advisor (from USAID
     and/or other participating PEPFAR agencies) to work with them to
     ensure an in-country process is in place to collect data and verify its
     quality. The strategic information advisor works with all USG staff
     on record-keeping, program reporting standards, and other quality
     improvement initiatives.     Each year, reporting and program
     monitoring systems become more comprehensive and accurate as
     countries take additional steps to improve partner performance
     monitoring, such as formalized pipeline and portfolio management
     reviews.

   o USG SI Trainings: A multi-pronged approach has been used to train
     USG staff on strategic information, with a specific focus on
     monitoring and evaluation and improving data quality. An orientation
     for all SI staff was originally held at CDC in the summer of 2004, and
     regional SI meetings have been held annually since.

      The trainings have focused on following topics:

      •   Indicators and reporting for PEPFAR
      •   Data quality assessment
      •   M&E capacity building
      •   Agency and national coordination
      •   Target setting

   • Distance-based Trainings. In 2006 distance-based target and
     results reporting trainings were initiated to prepare focus countries for
     their 2007 COPS and mini-COPs. There now are monthly digital
     video conferences (DVCs) and/or conference calls on implementation,
     management, and strategic information challenges and best practices
     that USAID country and headquarters staff participate in. The DVCs
     provide regular opportunities for headquarters and country-based staff
     to present and exchange information. These meetings are regularly


                                                                           21
                                                                 APPENDIX II


      scheduled for the second Tuesday of each month (with some
      exceptions).

   o Country Capacity. In-country teams have also been working over
     the past few years to build M&E systems in-country. M&E training,
     Data Quality Assessments, and SI technical assistance are just a few
     activities that USG country teams have implemented. In FY 2004 and
     FY2005, approximately 27,200 people were trained and/or retrained
     in strategic information. The number of people trained in strategic
     information has continued to increase in FY2006 with 34,100
     individuals trained in strategic information.

Summary

       The President’s Emergency Plan for AIDS Relief is entirely unique
and unrivaled within the global arena, demonstrating the strength of a single
USG approach, fully comprehensive HIV/AIDS programming, and large
infusions of accountable funding. The scale-up of this effort has been
extremely rapid, and during this short timeframe problems have been
identified, and changes and improvements made based on lessons learned.
USAID/OIG has been an integral part of the PEPFAR interagency team that
has made these changes, and will continue to shape the ever-evolving
approaches used to assist country programs in delivering and reporting on
services.

      USAID is one of the primary USG partners in PEPFAR, and will
continue to collaboratively develop and promote further improvements and
capacity building in the collection and reporting of data. Some issues are
beyond the control of USAID, or even of OGAC (e.g., Congressional
appropriations cycles), but efforts to standardize and simplify reporting will
continue, in conjunction with broader efforts to improve the quality of
information and data for these programs. Ongoing work to expand local
capacity in information management will intensify in this sustainability
phase of PEPFAR, particularly to ensure routine monitoring of data validity
and to support procedures for internal auditing of these data systems.

      In closing, the Office of HIV/AIDS would again like to express its
appreciation for the manner in which these audits were conducted and the
usefulness of the findings contained therein.



                                                                           22
                                                                                APPENDIX III


                     Audit Recommendations by Mission Audited 17

Mission                       Audit Recommendations                        Recommendation
                                                                                 Status
Tanzania         1. Develop a monitoring plan—including field site         Final Action
                    visits and milestones—based on a risk
                    assessment of its Emergency Plan partners and
                    their activities.

Guyana           1. Obtain from Family Health International 18 an          Management
                    action plan that includes a timeline and steps         Decision
                    needed to fully implement abstinence/be faithful
                    activities,  prevention    of   mother-to-child
                    transmission mass media campaigns, palliative
                    care, and orphan and vulnerable children
                    programs.

                 2. In coordination with Family Health International,      Management
                    develop, disseminate, and support with on-site         Decision
                    mentoring, detailed guidance on implementing
                    the palliative care and orphan and vulnerable
                    children program components for the benefit of
                    participating sub-grantees.

                 3. Ensure that performance indicators and their           Management
                    corresponding    targets   are    developed            Decision
                    consistently among the various program
                    documents.

                 4. Periodically evaluate performance indicators to        Management
                    ensure that all indicators are necessary, relevant     Decision
                    and easily understood by all concerned.

                 5. Ensure that Family Health International provides       Management
                    the Ministry of Health and sub-grantees with           Decision
                    training and guidance that ensures the
                    submission of accurate, well-documented

17
  The audit recommendation status was obtained from the Consolidated Audit Tracking System,
a database managed by USAID’s Audit, Performance and Compliance Division (M/CFO/APC), on
December 21, 2006. A management decision is made when the OIG agrees with the USAID
audit action officer on the appropriateness of corrective action, or when the OIG acknowledges
that a Contract, Grant or Agreement Officer has made a management decision. For performance
audits such as the above mission-level audits, the OIG must agree that the proposed action will
correct the adverse situation that necessitated the recommendation. Final action occurs when
action has been taken to correct or improve the problem, or when management has
demonstrated that action is not necessary.
18
     See footnote number 5.




                                                                                            23
                                                                                APPENDIX III


Mission                       Audit Recommendations                        Recommendation
                                                                               Status
Guyana               performance data on current and cumulative
(cont.)              progress toward achieving targets.

                 6. Ensure that Family Health International                Management
                    implements a monitoring plan that regularly            Decision
                    validates the quality of data, including supporting
                    documentation, submitted by all sub-grantees.

                 7. Arrange to modify the current contract and any         Management
                    subsequent contracts with Maurice Solomon &            Decision
                    Company 19 to better ensure that sub-grantees
                    receive adequate funds in a timely manner.

                 8. Obtain evidence that Maurice Solomon &                 Final Action
                    Company has provided financial management
                    training to sub-grantees so that the monthly
                    liquidations can be completed accurately and on
                    schedule.

                 9. Work with Family Health International and              Management
                    Maurice Solomon & Company to develop a clear           Decision
                    exit strategy for the Emergency Program in
                    Guyana.

South            1. Develop Mission-specific procedures requiring          Final Action
Africa              that its recipients periodically test their own and
                    their sub-recipient’s data to help establish the
                    validity of the reported data.

                 2. Develop a monitoring and evaluation training           Final Action
                    plan that meets the range of monitoring and
                    evaluation skill level needs of its recipients.

                 3. Develop procedures to document and maintain            Management
                    evidence of site visits, including its testing of      Decision
                    recipient data to help establish the validity of the
                    reported data.




19
     See footnote number 6.




                                                                                          24
                                                                       APPENDIX III


Nigeria   1. Develop specific procedures to cross-check and       Final Action
             verify data used to monitor, report and/or assess
             the progress of Emergency Plan partners,
             including but not limited to Portfolio Reviews and
             the Mission’s internal Annual Report Tables, and
             that this verification should be documented in
             the activity files.




                                                                                 25
                                                                       APPENDIX IV


                                Audit Reports Issued

The following reports were issued as part of this Emergency Plan audit. The
reports are listed chronologically, and are available on USAID/OIG’s website at
http://www.usaid.gov/oig/public/fy06rpts/fy06rpts1.html

Report No. 9-621-06-006-P, Audit of USAID/Tanzania’s Progress in Implementing the
President’s Emergency Plan for AIDS Relief, May 4, 2006

Report No. 1-504-06-005-P, Audit of USAID/Guyana’s Progress in Implementing the
President’s Emergency Plan for AIDS Relief, May 25, 2006

Report No. 4-674-06-013-P, Audit of USAID/South Africa’s Progress in Implementing the
President’s Emergency Plan for AIDS Relief, August 11, 2006

Report No. 7-620-06-004-P, Audit of USAID/Nigeria’s Progress in Implementing the
President’s Emergency Plan for AIDS Relief, August 31, 2006




                                                                                  26
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
